TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Improvements Are Needed to Ensure That
                Procedures Are Followed During Partnership
                   Audits Subject to the Tax Equity and
                     Fiscal Responsibility Act of 1982



                                     September 26, 2014

                             Reference Number: 2014-30-082




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


IMPROVEMENTS ARE NEEDED TO                             return; (2) necessary checks were not always
ENSURE THAT PROCEDURES ARE                             documented to ensure that the Tax Matters
FOLLOWED DURING PARTNERSHIP                            Partner was qualified to represent the
AUDITS SUBJECT TO THE TAX EQUITY                       partnership; (3) some Forms 2848, Power of
                                                       Attorney and Declaration of Representative, did
AND FISCAL RESPONSIBILITY ACT
                                                       not contain the required information that allows
OF 1982                                                disclosure of tax return information; and
                                                       (4) some Letters 1787, Notice of Beginning of

Highlights                                             Administrative Proceeding, were not issued
                                                       timely. When the sample results are projected
                                                       to the population of 2,698 TEFRA audits closed
Final Report issued on                                 during Fiscal Year 2012, TIGTA estimates that
September 26, 2014                                     approximately 1,696 TEFRA audits were not
                                                       conducted in accordance with one or more
Highlights of Reference Number: 2014-30-082            applicable TEFRA procedures.
to the Internal Revenue Service Commissioners
for the Large Business and International and           A combination of factors contributed to the
Small Business/Self-Employed Divisions.                errors that TIGTA identified, and additional
                                                       actions are needed to ensure that audits of
IMPACT ON TAXPAYERS                                    partnerships are conducted in accordance with
                                                       applicable TEFRA procedures.
The enactment of the Tax Equity and Fiscal
Responsibility Act of 1982 (TEFRA) by Congress         WHAT TIGTA RECOMMENDED
resulted in revisions to the Internal Revenue
Code and the IRS’s administrative procedures           TIGTA recommended that the Commissioners,
for conducting audits of partnerships. There are       Large Business and International and Small
many reasons for the IRS to ensure that                Business/Self-Employed Divisions, ensure that
procedures are followed. Most importantly,             the additional control procedures implemented
procedural errors can affect the validity of the       to monitor whether examiners timely submit
tax assessments, infringe on taxpayer rights,          control documents are working as intended and
and result in improper disclosures of tax              that interim guidance is issued to clarify when
information.                                           examiners are required to submit the necessary
                                                       control documents. In addition, TIGTA
WHY TIGTA DID THE AUDIT                                recommended that quality reviews be revised to
                                                       monitor the examiners’ compliance with all
This audit was initiated to determine whether          applicable statutory and administrative
audits of partnerships subject to the TEFRA are        procedures and that the results of such reviews
initiated in accordance with applicable statutory      be used to provide feedback to the first-line
and administrative procedures. The review is           managers and examiners. Finally, TIGTA
part of our Fiscal Year 2014 Annual Audit Plan         recommended that the IRS take steps to hold
and addresses the major management                     first-line managers accountable for ensuring that
challenge of Taxpayer Protection and Rights.           TEFRA audits are conducted in accordance with
WHAT TIGTA FOUND                                       all procedures.

TIGTA reviewed a statistically valid sample of         In their response to the report, IRS officials
35 partnership audits subject to the TEFRA that        agreed with all of our recommendations and
were closed during Fiscal Year 2012 and                plan to take corrective actions.
identified 22 audits that were not conducted in
accordance with one or more applicable TEFRA
procedures. Specifically, TIGTA found that:
(1) minimum tests were not always documented
to determine whether TEFRA procedures should
have been used to examine the partnership
                                                     DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  September 26, 2014


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                            Michael E. McKenney
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Improvements Are Needed to Ensure That
                                  Procedures Are Followed During Partnership Audits Subject to the Tax
                                  Equity and Fiscal Responsibility Act of 1982 (Audit # 201330038)

 This report presents the results of our review to determine whether audits of partnerships subject
 to the Tax Equity and Fiscal Responsibility Act of 19821 (TEFRA) are initiated in accordance
 with applicable statutory and administrative procedures. The review is included in our Fiscal
 Year 2014 Annual Audit Plan and addresses the major management challenge of Taxpayer
 Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Bryce Kisler, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).




 1
     Pub. L. No. 97-248, 96 Stat. 324 (codified as amended in scattered sections of 26 U.S.C.).
                              Improvements Are Needed to Ensure That Procedures
                                Are Followed During Partnership Audits Subject to
                               the Tax Equity and Fiscal Responsibility Act of 1982




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Controls Have Been Developed to Help Examiners Conduct
          Partnership Audits ......................................................................................... Page 5
          Additional Controls Are Needed to Ensure That Procedures
          Are Followed During Partnership Audits ..................................................... Page 7
                    Recommendations 1 through 4:......................................... Page 17

                    Recommendation 5:........................................................ Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Outcome Measure ................................................................ Page 24
          Appendix V – Procedural Errors Identified in Related Tax Years ............... Page 25
          Appendix VI – Glossary of Terms ................................................................ Page 26
          Appendix VII – Management’s Response to the Draft Report ..................... Page 30
        Improvements Are Needed to Ensure That Procedures
          Are Followed During Partnership Audits Subject to
         the Tax Equity and Fiscal Responsibility Act of 1982




                   Abbreviations

AIMS         Audit Information Management System
CTF          Campus TEFRA function
FY           Fiscal Year
IRM          Internal Revenue Manual
IRS          Internal Revenue Service
LB&I         Large Business and International
NBAP         Notice of Beginning of Administrative Proceeding
PCS          Partnership Control System
SB/SE        Small Business/Self-Employed
TEFRA        Tax Equity and Fiscal Responsibility Act of 1982
TIGTA        Treasury Inspector General for Tax Administration
TMP          Tax Matters Partner
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982




                                             Background

A partnership1 is a relationship between two or more entities or persons who join to carry on a
trade or business, with each partner contributing money, property, labor, or skill, and each
expecting to share in the profits and losses. Although partnerships are required to file a
Form 1065, U.S. Return of Partnership Income, which shows the partnership’s income or loss,
partnerships are not taxed directly. Instead, the partners are responsible for reporting their share
of a partnership’s income or loss on their respective income tax returns.2 Because the partnership
distributes untaxed income, losses, credits, and other items to the respective partners,
partnerships are commonly referred to as flow-through entities.
Since Tax Year 2002, the number of partnerships has grown at an average annual rate of about
4 percent. In its most recent Statistics of Income Bulletin, the Internal Revenue Service (IRS)
reported that for Tax Year 2011, the number of partnerships and direct partners totaled about
3.3 million and 24.4 million, respectively.3 The IRS also reported that partnerships claimed
assets of $20.6 trillion and net income of $580.9 billion.
Because partnership losses4 can offset the partners’ income from other sources, in the 1970s and
early 1980s, some taxpayers began using partnerships as a vehicle to take advantage of
unintended loopholes in the tax laws. Enactment of the Tax Equity and Fiscal Responsibility Act
of 19825 (TEFRA) by Congress was intended, in part, to close some of the tax loopholes. For
example, the TEFRA reduced the potential to use a partnership as a tax shelter by adding various
partnership penalties to the Internal Revenue Code6 in an effort to deter the promotion of and
investment in abusive tax shelters.
The TEFRA-related revisions to the Internal Revenue Code also affected how the IRS conducts
audits of partnerships that do not meet the TEFRA’s small partnership exception.7 The TEFRA
defines the small partnership exception as those partnerships that have 10 or fewer partners and


1
  See Appendix VI for a glossary of terms.
2
  For each partner, partnerships are required to provide a Schedule K-1, Partner’s Share of Income, Deductions,
Credits, etc., to the IRS and the respective partners. The Schedule K-1 is unique to each individual partner as it
shows the partner’s share of the total partnership business activity. The individual partners are responsible for
reporting the information from the Schedule K-1 on their respective individual tax return.
3
  IRS, Statistics of Income Bulletin (Fall 2013).
4
  The amount of partnership loss a partner may deduct is limited by basis rules, at-risk limitations, passive activity
limitations, and limitations applicable to specific deductions.
5
  Pub. L. No. 97-248, 96 Stat. 324 (codified as amended in scattered sections of 26 U.S.C.).
6
  Internal Revenue Code Sections 6221 through 6234.
7
  For more information on the complete provisions of the TEFRA, see the Joint Committee on Taxation, JCS-38-82,
General Explanation of the Revenue Provisions of the Tax Equity and Fiscal Responsibility Act of 1982 (Dec. 31,
1982).
                                                                                                              Page 1
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


none of the respective partners is a flow-through entity (e.g., S corporations, other partnerships,
or Limited Liability Companies that filed partnership returns).8 For each partnership audit, the
examiner must determine whether the partnership meets the TEFRA’s small partnership
exception. This determination must be made for each tax year under audit, can involve multiple
steps, and is emphasized in IRS procedures as being critically important for ensuring additional
tax assessments, if any, resulting from an audit are valid under the tax law.
Many of the TEFRA procedures required to initiate partnership audits are the same regardless of
whether the partnership meets the TEFRA’s small partnership exception. For those partnerships
that meet the TEFRA’s small partnership exception, the audits (hereafter referred to as a
“non-TEFRA audit”) are in many ways like an audit of the individual partners. For example,
each partner’s return is audited separately, and the determination and treatment of partnership
items for one partner is not binding on any other partner. Additionally, the statute of limitations
for assessment of taxes is tied to the individual partners’ returns. Therefore, for the IRS to
extend the statute of limitations to facilitate completing the audit of a partnership return, the IRS
must obtain a signed consent form from each partner. For non-TEFRA audits, the examiner is
typically responsible for identifying and linking the partnership audit to the respective partners’
returns, which includes assessing (or refunding) any associated taxes resulting from the
non-TEFRA audit adjustments.9
For partnerships that do not meet the TEFRA’s small partnership exception, the treatment of
partnership items is determined at the entity level in one unified audit (hereafter referred to as a
“TEFRA audit”). For TEFRA audits, the examiners are required to perform a number of
procedures to ensure that the audits are conducted in accordance with the TEFRA statutory
requirements. To guide and assist its examiners and other personnel in complying with the
TEFRA statutory requirements, the IRS developed a set of administrative procedures that are
reflected in the Internal Revenue Manual (IRM). These statutory and administrative procedures
are hereafter referred to as “TEFRA procedures.” Among other procedures, TEFRA audits must
be conducted in accordance with all of the following TEFRA procedures.
        Identify a qualified Tax Matters Partner (TMP). To meet this statutory requirement, the
         IRS instructs its examiners to determine if a TMP was designated for each return under
         audit and whether such TMP(s) is qualified. The examiners are required to complete job
         aid Form 13828, Tax Matters Partner (TMP) Qualification Check Sheet, to determine
         whether the TMP(s) is qualified. If the TMP(s) is deemed unqualified, the examiner is
         required to complete the job aid Form 13827, Tax Matters Partner (TMP) Designation
         Check Sheet, to ensure that a proper TMP is designated. As the designated representative
         of the TEFRA partnership, the TMP performs several important duties that may include


8
  TEFRA procedures also apply to partnerships if one or more of the partners are not domestic partners or if the
partnership makes an election to be treated as a TEFRA partnership.
9
  There are situations that may require the Campus TEFRA Function (CTF) to link the non-TEFRA audit to the
respective partners’ returns.
                                                                                                             Page 2
                           Improvements Are Needed to Ensure That Procedures
                             Are Followed During Partnership Audits Subject to
                            the Tax Equity and Fiscal Responsibility Act of 1982


         entering into formal agreements with the IRS, which will bind certain partners10 in the
         partnership to any additional tax assessments resulting from the audit. Consequently, if a
         TMP is not properly qualified, agreements entered into on behalf of the partnership may
         not be valid under the tax law.
        Provide the partnership with official notification by mail that the IRS is beginning a
         TEFRA audit. To meet this statutory requirement, the IRS instructs its examiners to
         forward by mail Letter 1787, Notice of Beginning of Administrative Proceeding (NBAP),
         to the TMP. The IRS also established an administrative procedure to require that the
         NBAP be issued by certified mail before the start of the examination (i.e., before
         reviewing the taxpayers books and records).11 This administrative procedure was
         designed to ensure that the IRS meets the statutory requirement of issuing the NBAP
         120 days before Letter 1830, Notice of Final Partnership Administrative Adjustment, is
         issued to the TMP.
        Add special statements to the Power of Attorney and Declaration of Representative
         form. To meet this statutory requirement, the IRS instructs its examiners to ensure that
         special statements are added to Form 2848, Power of Attorney and Declaration of
         Representative,12 when it involves a TEFRA partnership.
        Submit control documents needed for establishing the TEFRA audit on the IRS
         Partnership Control System (PCS) after issuing the Letter 1787 to the TMP. To meet
         this IRS administrative requirement, examiners are required to submit control documents
         to start the process of linking the TEFRA partnership return to the respective individual
         partner returns in the PCS. This linkage is required for all TEFRA audits open after
         60 days. The IRS uses the PCS to generate and issue TEFRA notices, such as the
         Letter 1787, to the notice partners associated with the TEFRA partnership.
In a Fiscal Year (FY) 2006 Treasury Inspector General for Tax Administration (TIGTA) report,13
we reported that audits of partnerships often do not follow all procedures required by the
TEFRA. This audit was initiated, in part, to follow up on the corrective actions taken in response
to our prior report.
This review was performed with information obtained from the Large Business and International
(LB&I) Division Headquarters in Washington, D.C., and the Small Business/Self-Employed
(SB/SE) Division Headquarters in New Carrollton, Maryland, during the period November 2012


10
   A partner who is a non-notice partner (i.e., a partner who has a less than one percent interest in the profits of a
partnership with more than 100 partners) may be bound by any formal agreement that is entered into by the TMP.
11
   The issuance of the NBAP on the same day that the taxpayer’s books and records are reviewed would meet this
administrative requirement.
12
   The same Form 2848 is used to designate a power of attorney in all audits.
13
   TIGTA, Ref. No. 2006-30-106, Examinations of Partnerships Often Do Not Follow All Procedures Required by
the Tax Equity and Fiscal Responsibility Act of 1982 (Jul. 2006).
                                                                                                                Page 3
                      Improvements Are Needed to Ensure That Procedures
                        Are Followed During Partnership Audits Subject to
                       the Tax Equity and Fiscal Responsibility Act of 1982


through March 2014. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 4
                            Improvements Are Needed to Ensure That Procedures
                              Are Followed During Partnership Audits Subject to
                             the Tax Equity and Fiscal Responsibility Act of 1982




                                        Results of Review

While management controls have been developed to help examiners in conducting TEFRA
audits, our review of a statistically valid sample14 of TEFRA audits found that about two-thirds
of them were not conducted in accordance with one or more TEFRA procedures. There are
important reasons for the IRS to ensure that procedural errors, such as the ones we identified, are
avoided. More importantly, procedural errors can affect the validity of the tax assessments,
result in improper disclosures of tax information, and infringe on taxpayers’ rights.

Controls Have Been Developed to Help Examiners Conduct
Partnership Audits
The IRS relies on its examiners and first-line managers to ensure that TEFRA audits are properly
conducted in accordance with both statutory and administrative procedures. To assist examiners
and first-line managers in meeting this responsibility, the IRS has developed and implemented a
number of policies, procedures, and management controls.

Procedures were revised to require examiners to complete job aids to ensure that
TEFRA procedures are followed
The IRM is an important control component because it contains the official compilation of
detailed instructions and explanations of the statutory and administrative procedures for
examiners to follow in conducting TEFRA audits. Although there are similarities in the
procedural requirements for TEFRA and non-TEFRA audits, there are additional statutory and
administrative procedural requirements that make initiating a TEFRA audit more detailed and
can place greater burden on examiners. Given that the IRM is voluminous and the requirements
are spread throughout different sections, the IRS consolidated applicable IRM requirements into
check sheets (commonly referred to as “job aids”) for the examiners to complete during their
audits.
During our FY 2006 review of the examiners’ compliance with TEFRA procedures, we found
that although the available job aids covered some of the TEFRA procedures, examiners were not
required to complete them. As a result of our prior report findings and recommendations,
Examination function management in the LB&I and SB/SE Divisions revised the IRM in
Calendar Year 2008 to require examiners to complete, and include in partnership audit files, the
following job aids:



14
     Our statistically valid sample was a simple random sample.
                                                                                            Page 5
                        Improvements Are Needed to Ensure That Procedures
                          Are Followed During Partnership Audits Subject to
                         the Tax Equity and Fiscal Responsibility Act of 1982


        Form 13813, Partnership Procedures Check Sheet, is required for all partnership
         (TEFRA and non-TEFRA) audits. Among other things, this check sheet is used by the
         examiner to document whether the partnership is subject to the TEFRA and outlines the
         TEFRA procedures that need to be completed. Given that the circumstances of the
         partnership may change from year to year, the examiner must determine whether the
         partnership meets the TEFRA’s small partnership exception for every tax year return
         under audit and, as a result, a separate Form 13813 is required for each tax year.
        Form 13814, TEFRA Linkage Package Check Sheet, is required for all TEFRA audits
         that are linked in the PCS and is used by the examiner to ensure that the proper
         procedures are followed when submitting the PCS Linkage Package. Form 13814 must
         be completed and submitted when linking a partnership audit in the PCS. However, if the
         examiner submits the PCS Linkage Package electronically, the examiner would be
         required to submit either Form 14090, TEFRA Electronic Linkage Request Check Sheet
         (LB&I), or Form 14091, TEFRA Electronic Linkage Request Check Sheet (SB/SE),
         depending on whether the audit is being conducted by the LB&I or SB/SE Divisions,
         respectively.15
        Form 13827, TMP Designation Check Sheet, is required for all TEFRA audits when a
         TMP must be designated and is used by the examiner to ensure that proper procedures are
         followed when a new TMP must be designated by the TEFRA entity or by the IRS.
        Form 13828, TMP Qualification Check Sheet, is required for all partnership audits
         subject to the TEFRA and is used by the examiner to ensure that the general partner or
         member-manager identified as the TMP is properly qualified and his or her status as TMP
         has not terminated. Given that the circumstances of the partnership may change from tax
         year to tax year, the examiner must determine whether the TMP is qualified for every tax
         year return under audit and, as a result, a separate Form 13828 is required for each tax
         year.

A number of training courses and advisories were provided to examiners and
first-line managers to emphasize the importance of following TEFRA procedures
All examiners who perform partnership audits are required to take training specifically related to
the TEFRA. These training courses cover topics such as flow-through adjustments, issuance of
the NBAP, PCS linkage, and other TEFRA procedures. We reviewed the training materials that
were provided to examiners during FYs 2010 through 2013 and found that the training materials
generally provided an adequate overview of the TEFRA procedures. In addition to the TEFRA
training courses, the IRS created an internal TEFRA website that provides a one-stop resource
for examiners and managers to use to guide them through initiating and conducting partnership


15
  Form 13814 was applicable during the time our sample audits were closed; however, Form 13814 was replaced by
Forms 14090 and 14091.
                                                                                                      Page 6
                         Improvements Are Needed to Ensure That Procedures
                           Are Followed During Partnership Audits Subject to
                          the Tax Equity and Fiscal Responsibility Act of 1982


audits. The website provides an overview of the TEFRA procedures and contains links to
TEFRA guidance in the IRM as well as job aids, PCS linkage guidance and forms, and
previously provided training materials. Further, the importance of following TEFRA procedures
is periodically emphasized to examiners and managers in the Technical Digest newsletter, a
monthly publication by the SB/SE Division’s Technical Services function, as well as in LB&I
and SB/SE Divisions’ e-mail advisories.

Additional Controls Are Needed to Ensure That Procedures Are
Followed During Partnership Audits
Although examiner compliance with all four TEFRA procedures has improved since our
FY 2006 report, overall compliance with the TEFRA procedures still remains a concern.
Specifically, our review found that 22 (63 percent) of the 35 FY 2012 TEFRA audits were not
conducted in accordance with one or more TEFRA procedures.16 IRS officials who reviewed the
audit case files agreed with the conclusions we reached in all 22 TEFRA audits. When the
sample results are projected to our population of 2,698 closed TEFRA audits, we estimate that
one or more TEFRA procedures were not followed in 1,696 TEFRA audits.17 It is important for
the IRS to ensure that examiners comply with all applicable TEFRA procedures.

Compliance with TEFRA procedures has significantly improved since our last
review
As shown in Figure 1, our review of a statistically valid sample of 35 TEFRA audits closed
during FY 2012 found that there have been significant improvements in the examiners’
compliance with all four of the TEFRA procedures that were tested during our prior review of
TEFRA audits closed during FYs 2004 and 2005.




16
   In a FY 2006 TIGTA report, we reported that 33 (55 percent) of 60 audits closed during FYs 2004 and 2005 were
not completed in accordance with one or more required procedures.
17
   See Appendix IV. We are 95 percent confident that the number of audits that were not conducted in accordance
with one or more TEFRA procedures is between 1,212 and 2,119.
                                                                                                         Page 7
                              Improvements Are Needed to Ensure That Procedures
                                Are Followed During Partnership Audits Subject to
                               the Tax Equity and Fiscal Responsibility Act of 1982


                          Figure 1: Comparison of the Procedural Errors
                        Identified During Our Reviews of Partnership Audits

                                                                               FYs 2004 and
                                                                                2005 Closed           FY 2012
                                                                                  Audits18          Closed Audits
                             Procedural Errors                                Errors         %     Errors        %19
     Minimum tests were not documented in audit case files (Form 13813
     was applicable for FY 2012 audits) to determine whether TEFRA             33            55%   **1**         **1**
     procedures should be used to examine the partnership return.
     Necessary checks were not documented in audit case files
     (Form 13828 was applicable for FY 2012 audits) to ensure that the
                                                                               23            38%     6           17%
     TMP was qualified to represent the partnership for tax matters arising
     from the audit.
     Form 2848 did not contain required information that allows
     disclosure of tax return information to designated individuals or         25            42%     4           13%20
     organizations.
     NBAPs were either not issued or the issuance was not timely.              3121          52%    1522         43%
     Total Number of Sampled Closed Audits Reviewed.                                  6023                  35

Source: TIGTA Ref. No. 2006-30-106 and analysis of our statistically valid sample of 35 TEFRA audits closed
during FY 2012.



18
   The 60 sampled audits evaluated during our prior audit were selected from a population of 2,441 partnership
audits closed between October 1, 2003, and June 30, 2005.
19
   The error rates shown in Figure 1 are exclusive to our statistically valid sample of 35 partnership returns that were
audited by the IRS and closed during FY 2012. Therefore, any errors found in the related year returns associated
with our statistically valid sample of returns are not included in the Figure 1 error rates. Instead, we have presented
them in Appendix V.
20
   The Form 2848 error rate for the FY 2012 sampled audits was calculated using a sample size of 30, as that was the
number of sampled audits for which a Form 2848 was applicable (i.e., only 30 of the 35 sampled audits had a
designated power of attorney).
21
   These 31 errors included instances in which the NBAPs were issued after the partnership records were examined
as well as instances in which the audit file did not contain evidence that NBAPs were issued.
22
   These 15 errors include only instances in which the NBAPs were issued after the partnership records were
examined, as all of the 35 audit case files included evidence that an NBAP was issued.
23
   Our FY 2006 review of a sample of 60 closed FYs 2004 and 2005 audits included partnerships that were subject
to TEFRA and some that were not subject to TEFRA. For those partnerships that met the TEFRA’s small
partnership exception, two of the procedures (qualification of the TMP and issuance of the NBAP) would not have
been applicable. Therefore, the FYs 2004 and 2005 error rates for these two procedures may be higher than what is
actually shown in Figure 1 and, as a result, the FY 2012 compliance rates with these two procedures would be an
even more substantial improvement. Given that our FY 2006 report did not specify how many met the TEFRA’s
small partnership exception, we calculated the error rate for these two procedures by using the total number (60) of
sampled audits we reviewed as we know that the error rates were at least 38 percent (23/60) and 52 percent (31/60).
                                                                                                                 Page 8
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


Examiners did not always determine whether the TEFRA procedures should be
used to examine partnership returns
To the IRS’s credit, the error rate decreased by almost 100 percent for the TEFRA procedure that
requires examiners to document the minimum tests that were taken to determine if TEFRA
procedures should be used to examine a partnership return (Form 1065). Specifically, during
FY 2006, we reported a 55 percent error rate. This is a stark contrast to the **1** percent error
rate identified in our sample of FY 2012 closed audits.
However, in addition to our statistically valid sample of 35 TEFRA audits closed during
FY 2012, we reviewed a judgmental sample24 of 30 partnership audits closed during FYs 2011
through 2013 and found instances in which the examiners did not determine whether TEFRA
procedures should be used. Specifically, we found, and the IRS agreed, that examiners in
************************************1*****************************************
************************************1*****************************************
***********************************1******************************************
************************************1**********************,25*****************
************************************1*****************************************
************************************1*****************************************
*************1************.
Failing to identify that a partnership is subject to the TEFRA and completing the audit without
following the TEFRA procedures could result in invalid tax assessments as well as infringe on
the taxpayers’ rights since required procedures, both statutory and administrative, were not
followed. We notified the IRS of these ***********1************************
*******************************************1**********************************
*******************************************1**********************************
*******************************************1**********************************
********************************************1*********************************
*************1***********.

Steps to ensure that the TMPs were qualified to represent the partnerships were
not always documented
Since our last review, the error rate has decreased by over one-half for the TEFRA procedure
that requires examiners to document the steps performed to ensure that the TMP was qualified to
represent the partnership for tax matters arising from the audit.


24
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
We performed aggregate-level data analysis to identify this judgmental sample. See Appendix I for additional
details regarding the methodology for this analysis.
25
   Although the Form 13813 is required, the examiner can also use the online TEFRA determination tool, print the
results, and include it in the audit case file.
                                                                                                              Page 9
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


Necessary checks were not documented in audit case files (Form 13828 applicable for FY 2012
audits) to ensure that the TMP was qualified to represent the partnership for tax matters arising
from the audit. Almost one out of every five audits (17 percent) was lacking documentation for
the TMP’s qualifications. Although the IRS agreed that the necessary checks were not
documented for six (17 percent) of the 35 FY 2012 TEFRA audits we reviewed, without
contacting the partnerships, neither TIGTA nor the IRS would know whether the TMPs were in
fact qualified. Therefore, it is important that the examiners document their conclusions in the
audit case files. An unqualified TMP representing the partnership for tax matters arising from
the audit could result in invalid tax assessments,26 improper disclosures of tax information, and
potential barred assessments.27
Power of attorney forms lacked TEFRA-specific information
The error rate for the TEFRA procedure that requires the examiner to ensure that
TEFRA-specific information is included on the Form 2848 decreased by more than two-thirds
since our last review.28 Although the error rate for this procedure for FY 2012 closed audits was
relatively low at 13 percent, it is still important that examiners ensure that the Form 2848 is
properly completed to reduce the risks of invalid tax assessments, improper disclosures of tax
information, and potential barred assessments.
A properly completed Form 2848 is necessary to ensure that the partnership’s tax information is
provided only to those authorized to receive such information. When the Form 2848 is not
properly completed, the form is invalid and the individual listed as the power of attorney on this
form is not authorized to represent the taxpayer. For example, if the power of attorney is not
authorized and extends the statute to assess taxes on behalf of the partnership, then there is a risk
that the statute extension may be invalid. This invalid statute extension, in turn, could result in
barred assessments if the IRS does not obtain a valid extension to assess the taxes prior to the
assessment statue date expiring.




26
   A non-notice partner may be bound by any formal agreement that is entered into by the TMP only when specific
language is included on the TMP agreement authorizing the TMP to bind non-notice partners. When a TMP is not
properly qualified, formal agreements authorized by the TMP may not be valid under the tax law for the non-notice
partners.
27
   The qualification of a TMP is important to ensure that the partnership’s tax information is provided only to those
authorized to receive such information. If the IRS does not obtain a valid agreement to the tax assessments prior to
the assessment statue date expiring, the audit could result in barred assessments.
28
   The Form 2848 error rate for FY 2004 and 2005 audits, as noted in Figure 1, may have been much higher than
42 percent as the form is applicable only for those audits for which a taxpayer designates a power of attorney.
Given that our FY 2006 report did not specify how many of the audits involved a power of attorney, we calculated
the error rate by using the total number (60) of sampled audits we reviewed and know that the error rate was at least
42 percent (25/60).
                                                                                                            Page 10
                         Improvements Are Needed to Ensure That Procedures
                           Are Followed During Partnership Audits Subject to
                          the Tax Equity and Fiscal Responsibility Act of 1982


Required notices of beginning of administrative proceeding were not timely
issued
Our review found that in 15 (43 percent) of the 35 FY 2012 closed audits, the examiners did not
issue the NBAP in accordance with one of the IRS’s administrative procedures. Specifically, the
examiner is required to issue the NBAP prior to beginning an audit of a partnership return,
which, according to the IRM,29 is when the examiner begins reviewing the partnership’s books
and records. For these 15 audits, we found that the examiners issued the NBAPs four days to
135 days after reviewing the books and records.
Although the 43 percent error rate identified during this review was a slight improvement from
the 52 percent error rate identified during our prior review, the fact that the NBAPs are still being
issued untimely in almost one out of every two TEFRA audits is concerning. More importantly,
procedural errors, such as examiners issuing the NBAP after reviewing books and records, puts
the IRS at risk of not meeting a statutory requirement. Specifically, as noted earlier, the
requirement to issue the NBAP prior to reviewing the books and records was implemented to
help ensure that the IRS meets the statutory requirement of issuing the NBAP 120 days before
Letter 1830, Notice of Final Partnership Administrative Adjustment, is issued to the TMP. When
the IRS fails to comply with this timeline, there is risk of invalid tax assessments.30 Therefore,
timely issuance of the NBAPs is important to help protect revenue for the Treasury Department.

Improvements are needed to ensure that the PCS linkage packages are timely
submitted
In addition to the four TEFRA procedures shown in Figure 1, IRS administrative procedures
require examiners to submit PCS linkage packages to initiate the time-consuming process of
identifying and linking the respective partners in the PCS. This process involves the CTF
obtaining the appropriate tax returns for each partner, identifying which partners may be assessed
taxes or due a refund, and computing the amount that will be assessed or refunded if the
partnership audit does in fact result in adjustments to the partnership’s Form 1065.
To assess taxes (or issue a refund), the CTF must open and close an audit for each taxable
partner’s individual return. This process requires a number of manually performed procedures,
which often can be extremely cumbersome given the growing trend of complex partnership
structures. Given that the individual partners pay tax on their share of the partnership income,
the CTF at times has to identify hundreds to thousands of partners associated with one
partnership. Specifically, the CTF must often identify several tiers of flow-through entity
partners before identifying the actual taxable partners. Once the taxable partners are identified

29
  IRM 4.31.2.2.5.1(4) (Jun. 20, 2013).
30
  A taxpayer could challenge a proposed tax assessment in tax court and win his or her case based on this
procedural error. According to IRS officials, they are aware of at least one case, JT USA LP v. Commissioner,
131 T.C. No. 7 (Oct. 6, 2008), in which an untimely NBAP issuance resulted in the taxpayers winning their case
against the IRS.
                                                                                                         Page 11
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


and their tax returns are secured, the CTF must determine each partner’s share of the TEFRA
adjustments and calculate the tax effect.
Our review of a sample of FY 2012 closed TEFRA audits found that the PCS linkage packages
were either not submitted or were not submitted timely in 14 (54 percent) of the 26 31 audits in
which the PCS linkage was applicable.32 It is important for the examiner to submit the linkage
package timely to reduce the risk of potential barred assessments occurring. Specifically, the
IRS generally has only one year from the date the partnership audit closes to assess taxes (or
two years from the date the partnership audit closes to issue refunds) for the respective partners.33
As a result, the IRS implemented a requirement for examiners to submit the PCS linkage
packages within a certain number of days of the NBAP issuance (i.e., the start of the
examination). Although the IRS confirmed that the requirement was for examiners to submit the
PCS linkage packages within 60 days of the NBAP issuance, we found that the IRM guidance
available to examiners for our sample audits included conflicting requirements.
For example, although one section of the IRM34 stated that the PCS linkage should be submitted
within 60 days of the NBAP issuance, two other IRM sections35 stated that the PCS linkage was
mandatory for all TEFRA audits open36 after 60 days. In addition, the check sheet (Form 13813),
which outlines all the steps for auditing partnerships, stated that the PCS linkage package should
be submitted 45 days after the NBAP is issued. The lack of clear guidance may have created
some confusion and resulted in examiners submitting the PCS linkage packages untimely.37
However, the lack of clear guidance does not explain why PCS linkage packages were not
submitted for several audits38 that have been open from 109 to 400 days.39


31
   Our sample of 35 included nine audits for which PCS linkage was not required. For instance, the examiner closed
the audit before the audit was opened for 60 days. Therefore, the PCS linkage package error rate for the FY 2012
sample audits was calculated using a sample size of 26, as that was the number of sampled audits for which PCS
linkage was applicable.
32
   Our FY 2006 review did not test whether the examiners submitted PCS linkage packages timely; therefore,
Figure 1 does not include this information.
33
   According to IRM 4.31.3.10 (Oct. 1, 2010), a one-year date is a statute expiration date that affects a taxpayer’s
account as the result of a TEFRA examination.
34
   IRM 4.31.2.2.6.2.1 (Oct. 1, 2010).
35
   IRM 4.31.2.2.6.2 (Oct. 1, 2010) and IRM 4.31.2.2.6.2.4 (Oct. 1, 2010).
36
   An audit is considered open when it begins (which is when the examiner begins to review books and records).
The NBAP must be mailed before the start of an audit (i.e., before the examiner reviews books and records).
37
   Six of the14 audits with PCS linkage procedural errors had a PCS linkage package submitted untimely. For three
of the six audits, the PCS linkage packages were submitted between 78 and 97 days after the audit was opened. For
the remaining three audits, the PCS linkage packages were submitted between 130 and 198 days after the audit was
opened.
38
   For eight of the 14 audits with PCS linkage procedural errors, the examiner did not submit the required PCS
linkage package. For three of these eight audits, there was less than 60 days between the NBAP issuance date and
the examination closure date. However, for these three audits, the NBAP was issued untimely (i.e., after the
examiner reviewed the books and records). Had the NBAP been issued timely, there would have been more than
60 days between the NBAP issuance date and the examination closure date.
                                                                                                           Page 12
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


The guidance that was applicable for our sampled audits was established during FY 2010.
However, the IRS has since made a number of revisions to the IRM. Therefore, we also
evaluated the current guidance available to examiners and found that there continues to be
inconsistencies in the IRM. Specifically, we identified at least three separate PCS linkage
requirements in the current IRM: within 60 days,40 after 60 days,41 and after 90 days.42 We
discussed the inconsistent and conflicting guidance with IRS officials. They stated that they
were currently reevaluating the PCS linkage requirement as part of an ongoing Lean Six Sigma
study. The study is to determine whether all TEFRA audits, especially those that may result in
no adjustments, should be linked within 60 or 90 days given the time-consuming process of
identifying the individual partners and the challenges faced by the CTF. The IRS officials stated
that they plan to revise the IRM to clarify the PCS linkage requirement once a decision is made
as a result of the study. Given that current guidance is conflicting, the IRS should issue interim
guidance to ensure that examiners are submitting the PCS linkage packages timely.
In addition, during our review, the IRS designed a new process to help ensure that the examiners’
PCS linkage packages are submitted timely. Specifically, the Audit Information Management
System (AIMS) and the Examination Return Control System were revised during January 2014
to include a new field for the NBAP issuance date. As of July 2014, the IRS had drafted
revisions to the IRM that will outline the guidance for examiners to input the NBAP issuance
date. IRS officials stated that the NBAP issuance date in the Examination Return Control
System will be monitored to ensure that partnership audits are timely linked in the PCS. If
properly implemented, this new process should help to ensure that the PCS linkage packages are
timely submitted, which should reduce the risk of the IRS violating the taxpayers’ rights to
timely notification of audit results as well as better ensure that the IRS has sufficient time to
assess taxes (or issue refunds) for the respective partners.

The examiners’ use of job aids and first-line managerial involvement on the
required job aids could be improved
Our review found that a combination of factors contributed to the procedural errors we
identified. As a result, we believe that several actions can be taken by the IRS to improve
compliance with the TEFRA procedures. For instance, the IRS implemented several job aids as
a result of TIGTA’s 2006 audit report; however, as shown in Figure 2, our review of a statistical
sample of 35 TEFRA audits closed during FY 2012 found that the required job aids were not
always used or there was a lack of documentation showing managerial involvement.



39
   For four of 14 audits, there were adjustments to the partnerships’ Forms 1065 ranging from $126,707 in favor of
the taxpayer to $8,630,000 in favor of the IRS. We found that the PCS linkage packages for those four audits were
submitted between 78 and 130 days after the partnership audit was open.
40
   IRM 4.31.2.2.7.2.1 (Jun. 20, 2013).
41
   IRM 4.31.2.2.7.2.4 (Oct. 1, 2010).
42
   IRM 4.31.2.2.1 (Jun. 20, 2013).
                                                                                                          Page 13
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


                  Figure 2: Examiner Use of Job Aids and Documentation
                    of Managerial Involvement on the Required Job Aids

                                                                          Audits for Which Managerial
                            Audits for Which the Required                 Involvement Was Not Evident
                            Job Aids Were Not Included in                   on the Required Job Aids
                                 the Audit Case Files                    Included in the Audit Case Files

                          Required                                    Managerial
                           Job Aid                                    Involvement
       Required           Was Not        Applicable                     Was Not         Applicable
       Job Aids           Included        Audits             %          Evident          Audits              %

     Form 13813               0               35            0%             11                35            31%

     Form 13828               4               35            11%             9                31            29%

     Form 13827            **1**              9            **1**         **1**               7            **1**

Source: Analysis of our statistically valid sample of 35 TEFRA audits closed during FY 2012.

Although managerial involvement is required to be documented on these job aids,43 we did not
consider the audit an exception, in Figure 1, when the lack of managerial involvement was the
only issue that we identified. First-line managerial reviews are an important control in
monitoring the quality of the work performed by the examiners. Therefore, the first-line
manager should review the job aids to ensure that these forms are appropriately completed and
included in the audit file as well as to provide examiners with feedback for specific areas of
improvement. In addition, first-line managerial review of all TEFRA job aids would help the
managers in providing timely and constructive feedback to the examiners during the ongoing
TEFRA examination as well as during the midyear and annual performance evaluations.

Performance feedback and TEFRA-specific commitments could help better
ensure compliance with TEFRA procedures
Another factor that may have contributed to the procedural errors is the lack of meaningful
performance feedback to examiners and TEFRA-specific commitments44 to first-line managers.


43
   The IRM that was applicable during the time our sampled audits were closed required management involvement;
however, the requirement needed more clarification. We brought this issue to the attention of the IRS and they
confirmed that management involvement was required for our sampled audits and have since updated the IRM to
provide more clarification on this requirement.
44
   At the first-line manager level, the performance management system requires that, at the beginning of each fiscal
year, first-line managers coordinate with their respective Territory managers to set forth commitments in their
individual performance plans.
                                                                                                            Page 14
                         Improvements Are Needed to Ensure That Procedures
                           Are Followed During Partnership Audits Subject to
                          the Tax Equity and Fiscal Responsibility Act of 1982


TIGTA,45 the Government Accountability Office,46 and the U.S. Merit Systems Protection
Board47 have all previously reported that performance feedback can be a very effective tool in
helping employees understand and meet their responsibilities. It also provides opportunities to
give meaningful and constructive feedback on performance, pinpoint and address performance
gaps, and hold employees accountable for following management directives and delivering
results. As the following excerpt from the U.S. Merit Systems Protection Board report to the
President and Congress summarizes, continually monitoring and providing feedback to
employees is a critical component of performance management. Performance feedback can be a
very effective tool in helping employees understand and meet their responsibilities.
        This component, more than any other, can give employees a sense of how they are
        doing and can motivate them to be as effective as possible. Ideally, through these
        ongoing interactions between employees and supervisors, employees learn how their
        work fits into the goals of the work unit and how it contributes to the larger mission
        of the agency.
To get a better understanding of the types of performance feedback being provided to examiners
conducting TEFRA audits, we reviewed FYs 2011 through 2013 performance appraisals for a
small judgmental sample of 10 examiners.48 We found that although nine of the 10 examiners’
performance evaluations mentioned the TEFRA, such as, you continue to learn TEFRA and
partnership procedures, this quality of feedback does not emphasize to these examiners the
importance of following TEFRA procedures or provide any specific guidance on how they can
better conduct a TEFRA audit. Only one of the examiners’ appraisals included feedback about
the examiner’s compliance with TEFRA procedures and areas in which the examiner could
improve regarding following TEFRA procedures. For example, this examiner’s performance
feedback noted, “Need to do TEFRA linkage.” We believe that specific feedback on compliance
with each TEFRA procedure may improve examiners’ compliance with TEFRA procedures.
Additionally, we reviewed the FYs 2011 through 2013 commitments for a small judgmental
sample of 10 first-line managers49 and found that none of the first-line managers received any
specific commitments related to the TEFRA. Commitments are intended to provide the basis for
linking the first-line managers’ critical job responsibilities with the IRS’s balanced measures and
strategic goals and holding them accountable for their individual and team performances. To
realize these benefits, the commitments are to be related to at least one critical job responsibility.



45
   TIGTA, Ref. No. 2011-30-084, Additional Steps Are Needed to Better Ensure Audits Are Expanded to Prior
and/or Subsequent Year Returns When Substantial Taxes May Be Owed, p. 14 (Sept. 2011).
46
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Standards for Internal Control in the Federal Government, p. 8 (Nov. 1999).
47
   United States Merit Systems Protection Board, The Federal Workforce for the 21st Century: Results of the Merit
Principles Survey 2000, p. 24 (Sept. 2003).
48
   Five of the 10 examiners were associated with our exception cases.
49
   Six of the 10 first-line managers were associated with our exception cases.
                                                                                                         Page 15
                        Improvements Are Needed to Ensure That Procedures
                          Are Followed During Partnership Audits Subject to
                         the Tax Equity and Fiscal Responsibility Act of 1982


They should also, according to the IRS,50 specifically describe the actions to be taken, include a
deadline, indicate an expected result, and include some means of measurement. Given that
first-line managers are responsible for ensuring that partnership audits are conducted in
compliance with TEFRA procedures, we believe that it is important for first-line managers to be
held accountable.

Quality reviews of TEFRA audits should be improved
Improvements are needed to ensure that quality reviews are being performed for each TEFRA
audit and that the reviews are expanded to test compliance with all TEFRA procedures. In our
FY 2006 report, we noted that quality reviews were not being performed to determine whether
TEFRA procedures were followed. Specifically, we reported that although the LB&I Division’s
quality reviews evaluated how well examiners adhered to TEFRA procedures, the SB/SE
Division’s quality reviews did not include such evaluation. In response to our prior
recommendations, the IRS developed a TEFRA Checklist to be used by the SB/SE Division’s
Technical Services function reviewers and revised the IRM in October 2010 to require every
TEFRA audit, which includes those completed by both the LB&I and SB/SE Divisions, to be
quality reviewed. According to IRS officials, the results of these quality reviews are used to
identify problem areas and the types of training courses that are needed. However, we found that
these reviews are not always performed. For instance, our sample of 35 audits closed during
FY 2012 found that three (9 percent) audits were not quality reviewed by the Technical Services
function.
The results of our review of 35 sampled audits also found that the quality reviews could be
improved. Although the results of these reviews are tracked, compiled, and analyzed based on
14 elements related to the TEFRA procedures, we found that IRS quality reviews do not test for
every TEFRA procedure. For example, we identified 15 audits for which the NBAP was issued
after the examiners started their review of partnership records. Although **1** of these 15
audits were reviewed by the Technical Services function, the quality reviews did not find any
issues with the timing of the NBAP issuance. The reason for the discrepancy between our results
and the IRS’s results could be attributed to the fact that the IRS’s FY 2012 quality reviews did
not test whether the NBAPs were issued timely. Instead, the IRS’s FY 2012 quality reviews, as
well as the FY 2014 quality reviews, tested whether the NBAPs were issued with the correct
information and via certified mail. Given that examiners are required to issue the NBAP prior to
examining partnership records, the quality reviews should test the examiners’ compliance with
this procedure and provide feedback accordingly.
The NBAPs are required to be issued before the examiner reviews books and records to ensure
that taxpayer rights are protected. Adding more TEFRA elements to the quality reviews would


50
 See, for example, the IRS Human Capital Office guide entitled, Writing Performance Commitments “A Reference
Guide for Managers and Management Officials” (Oct. 2005).
                                                                                                   Page 16
                      Improvements Are Needed to Ensure That Procedures
                        Are Followed During Partnership Audits Subject to
                       the Tax Equity and Fiscal Responsibility Act of 1982


help better ensure that TEFRA procedures were followed as well as provide the IRS with
meaningful performance results to provide to both the examiners and first-line managers.

Recommendations
The Commissioner, LB&I Division, and the Commissioner, SB/SE Division, should:
Recommendation 1: Issue interim guidance to ensure that the examiners timely submit
control documents needed for establishing TEFRA audits on the PCS.
       Management’s Response: IRS management agreed with this recommendation and
       stated that they will issue joint interim guidance to ensure that the examiners timely
       submit control documents needed for establishing TEFRA audits on the PCS.
Recommendation 2: Ensure that the additional control procedures implemented to monitor
whether examiners submitted control documents needed for establishing TEFRA audits on the
PCS are working as intended and will effectively address the issues we identified in this report.
       Management’s Response: IRS management agreed with this recommendation and
       stated that they will issue a joint memorandum to first-line managers and examiners
       directing them to populate the Examination Return Control System with the date the
       NBAP was mailed. IRS management also plans to create reports to monitor whether the
       control procedures are working as intended. If the IRS finds that the control procedures
       are not working as intended, it will investigate the breakdown in the communication,
       procedures, or report output and correct the issue as necessary.
Recommendation 3: Ensure that the required job aids are timely reviewed by the first-line
managers and the review results are documented and used to provide examiners feedback
regarding their compliance with the TEFRA procedures.
       Management’s Response: IRS management agreed with this recommendation and
       stated that they will issue a joint memorandum for first-line managers detailing the
       requirement for documentation under the TEFRA procedures. After the issuance of the
       joint memorandum, the IRS has plans to conduct an analysis to evaluate the completion
       of the required job aids. Based on the results, the IRS will consider other options, such as
       targeted training.
Recommendation 4: Ensure that quality reviews performed by the SB/SE Division’s
Technical Services function are revised to monitor the examiners’ compliance with all required
procedures and that the reviews are performed for each TEFRA audit. The results of the reviews
should also be disseminated to appropriate IRS employees so the results can be used to provide
feedback to the first-line managers and the examiners regarding their compliance with the
TEFRA procedures.



                                                                                           Page 17
                    Improvements Are Needed to Ensure That Procedures
                      Are Followed During Partnership Audits Subject to
                     the Tax Equity and Fiscal Responsibility Act of 1982


      Management’s Response: IRS management agreed with this recommendation and
      stated that the “Reviewer Check Sheet” for the quality reviews will be updated to include
      a review of the NBAP issue date and that the information captured will be summarized
      and disseminated to appropriate employees to provide feedback to the first-line managers
      and the examiners regarding their compliance with TEFRA procedures.
Recommendation 5: Take steps to hold first-line managers accountable for ensuring that
TEFRA audits are conducted in accordance with all TEFRA procedures.
      Management’s Response: IRS management agreed with this recommendation.
      Specifically, to ensure that TEFRA audits are conducted in accordance with all TEFRA
      procedures, IRS management stated that SB/SE Division management will require
      TEFRA training for first-line managers and LB&I Division management will issue
      TEFRA-specific commitments to first-line managers.




                                                                                       Page 18
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether audits of partnerships subject to
the TEFRA are initiated in accordance with applicable statutory and administrative procedures.
To accomplish this objective, we:
I.       Determined whether the IRS implemented corrective actions in response to TIGTA’s
         FY 2006 report1 and whether such actions adequately addressed our prior findings.
II.      Identified the policies, procedures, and controls that the LB&I and SB/SE Divisions have
         in place to guide examiners in following applicable statutory and administrative
         procedures when initiating audits of partnership returns subject to the TEFRA. This was
         accomplished by interviewing IRS officials, reviewing the IRM, and researching the
         IRS’s internal website.
III.     Obtained an extract from the AIMS2 of FY 2012 audits for partnership cases (AIMS
         Activity Code 480 through 483) closed by revenue agents3 (Employee Group Code less
         than 2000). This extract included a total of 7,597 records. To identify only the TEFRA
         audits, we filtered the data to obtain those records for which the TEFRA Code field in the
         AIMS was equal to “Y.” We excluded closed audits that were considered training returns
         (i.e., Special Project Code field equal to 0204) and Coordinated Industry Cases
         (i.e., Coordinated Industry Case field equal to 1) from our population. This analysis
         identified a total of 2,698 TEFRA audits.
IV.      Validated the data obtained in Step III by comparing it to the Integrated Data Retrieval
         System and the IRS’s Statistics of Income Table 37. Specifically, we reconciled a
         judgmental sample4 of 10 audits from our population of closed FY 2012 audits of
         partnership returns to verify that the audits were in fact closed during FY 2012. Based on
         our sample, we determined that the data were reliable for purposes of this report.
V.       Selected and reviewed a statistically valid (simple random)5 sample of 35 TEFRA closed
         audits from the population of 2,698 TEFRA audits to determine whether TEFRA
         procedures were followed. Our statistically valid sample of 35 TEFRA closed audits was

1
  TIGTA, Ref. No. 2006-30-106, Examinations of Partnerships Often Do Not Follow All Procedures Required by
the Tax Equity and Fiscal Responsibility Act of 1982 (Jul. 2006).
2
  See Appendix VI for a glossary of terms.
3
  Revenue agents are the examiners who conduct audits of partnership returns; therefore, we limited our extract to
only those audits conducted by revenue agents.
4
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
5
  A statistically valid sample was used for this step so that the results could be projected to the population.
                                                                                                            Page 19
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


         selected using a 90 percent confidence level, ±13.4 percent precision rate, and
         62.86 percent occurrence rate6 as discussed with TIGTA’s contracted statistician. A
         statistically valid sample was taken because we wanted to estimate the number of audits
         that were not conducted in accordance with one or more TEFRA procedures for the
         population of 2,698 TEFRA audits.
VI.      Obtained and reviewed a judgmental7 sample of 30 partnership audits closed during
         FYs 2011 through 2013 to identify whether examiners appropriately determined when
         TEFRA procedures should be used. To identify the 30 audit case files, we analyzed the
         AIMS data and identified partnership audits closed during FYs 2011 through 2013 that
         were coded as non-TEFRA and compared the non-TEFRA audits to the IRS’s Schedule
         K-1, Partner’s Share of Income, Deductions, Credits, etc., data to identify partnerships
         that issued more than 10 Schedules K-1 to more than 10 partners for the tax year return(s)
         under audit.
VII.     Determined how LB&I and SB/SE Division management utilized the quality reviews
         conducted by the SB/SE Division’s Technical Services function and obtained the most
         recent review results (FYs 2010 through 2013) to determine if areas of improvement
         were identified and whether corrective actions were taken by management to address any
         weaknesses.
VIII.    Obtained and reviewed the training materials that were provided to examiners during
         FYs 2010 through 2013 to determine the amount and type of TEFRA training received.
IX.      Selected a judgmental sample of 10 revenue agents from our sample of TEFRA audits to
         determine whether they received any type of feedback related to conducting TEFRA
         audits during their mid-year and end-of-year appraisals or during any type of review
         process.
X.       Selected a judgmental sample of 10 first-line managers from our sample of TEFRA
         audits and evaluated their performance expectations to determine if there were any
         commitments/expectations related to the TEFRA.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems


6
  We originally contemplated a sample size larger than 35 based on a 50 percent occurrence rate; however, due to
very limited audit resources, we set our initial sample size to 35. TIGTA’s contracted statistician advised us that due
to the very high error rate, we could decide to stop sampling and that it would not impact the validity of our
statistical sample.
7
  Judgmental samples were used for this step, as well Steps IX and X, because we did not intend to project the
results of these tests to the entire population.
                                                                                                             Page 20
                      Improvements Are Needed to Ensure That Procedures
                        Are Followed During Partnership Audits Subject to
                       the Tax Equity and Fiscal Responsibility Act of 1982


for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
examining partnership returns. We evaluated these controls by reviewing source materials,
interviewing management, reviewing audit case files, and researching taxpayer accounts.




                                                                                           Page 21
                    Improvements Are Needed to Ensure That Procedures
                      Are Followed During Partnership Audits Subject to
                     the Tax Equity and Fiscal Responsibility Act of 1982


                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Randee Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Glen Rhoades, Director
Alan Lund, Audit Manager
Michelle Philpott, Audit Manager
Tina Fitzsimmons, Lead Auditor
Debra Mason, Lead Auditor
Carole Connolly, Senior Auditor
Alberto Garza, Senior Auditor




                                                                                    Page 22
                    Improvements Are Needed to Ensure That Procedures
                      Are Followed During Partnership Audits Subject to
                     the Tax Equity and Fiscal Responsibility Act of 1982


                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large Business and International Division (Domestic) SE:LB
Deputy Commissioner, Large Business and International Division (International) SE:LB:IN
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Pre-Filing and Technical Guidance, Large Business and International Division
SE:LB:PFTG
Director, Technical Services, Small Business/Self-Employed Division SE:S:E:TS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 23
                          Improvements Are Needed to Ensure That Procedures
                            Are Followed During Partnership Audits Subject to
                           the Tax Equity and Fiscal Responsibility Act of 1982


                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 1,696 TEFRA audits1 may not have been
    conducted in accordance with one or more TEFRA procedures (see page 7).

Methodology Used to Measure the Reported Benefit:
Our outcome calculation methodology for the audit exception cases included the following steps:
       We selected a statistically valid sample of 35 audits from the 2,698 closed FY 2012
        Form 1065, U.S. Return of Partnership Income, audits that were coded as TEFRA.
       We identified 22 TEFRA audits for which the examiners did not follow one or more
        applicable TEFRA procedures.
       Based on our sample error rate of 62.86 percent, we estimated that the number of audits
        that were not conducted in accordance with one or more of the TEFRA procedures to be
        approximately 1,696 (2,698 x 62.86).2 When an audit is not conducted in accordance
        with the required TEFRA procedures, these procedural errors can affect the validity of
        the tax assessments, infringe on taxpayer rights, and result in improper disclosure of tax
        information. 3




1
  See Appendix VI for a glossary of terms.
2
  We are 95 percent confident that the number of audits that were not conducted in accordance with one or more
TEFRA procedures is between 1,212 and 2,119.
3
  As noted in Appendix I, during the initial phase of our review we selected a sample of 35 TEFRA closed audits
using a 90 percent confidence level. The 90 percent confidence level was only used as a guide to determine our
overall sample size. When we projected our final results, we used a 95 percent confidence level. Both the selection
and projection confidence levels are independent of each other.
                                                                                                          Page 24
                             Improvements Are Needed to Ensure That Procedures
                               Are Followed During Partnership Audits Subject to
                              the Tax Equity and Fiscal Responsibility Act of 1982


                                                                                                  Appendix V

      Procedural Errors Identified in Related Tax Years

The error rates shown in this report are exclusive to our statistically valid sample of 35 closed
FY 2012 TEFRA audits1 of partnership returns. When the IRS audits more than one return
concurrently (i.e., the IRS will often audit the prior and subsequent year returns in addition to the
return that was originally selected for audit), each return examined is considered one audit. To
ensure the validity of our sample and projections to the population in Figure 1 of the report, we
included only the errors for the sample years selected as part of our statistically valid sample of
35 audits. For 16 of those 35 audits, the examiners audited more than one year concurrently and
the errors found in those related year returns are presented in this appendix.
                           Procedural Errors Identified During Our Review
                            of the Related Years of the Partnership Audits

                                                                                       Number of Errors
                                                                                        Identified in the
                                Procedural Errors                                     16 Multiyear Audits
    Minimum tests were not documented to determine whether the TEFRA or
                                                                                               **1**
    non-TEFRA procedures should be used to examine the partnership.
    Necessary checks were not documented on Form 13828, Tax Matters
    Partner (TMP) Qualification Check Sheet, to ensure that the TMP was                       **12**
    qualified to represent the partnership for tax matters arising from the audit.
    Form 2848, Power of Attorney and Declaration of Representative, did not
    contain required information that allows disclosure of tax return information             **13**
    to designated individuals or organizations.
    Letters 1787, Notice of Beginning of Administrative Proceeding, were
                                                                                                 74
    issued after partnership records were examined.
    PCS linkage package was not submitted or submitted timely within 60 days
                                                                                                 55
    of NBAP issuance.

Source: Analysis of additional related tax returns audited from our initial statistically valid sample of 35 TEFRA
audits closed during FY 2012.

1
  See Appendix VI for a glossary of terms.
2
  The Form 13828 was applicable in each of the 16 related tax year audits.
3
  The Form 2848 was applicable in 13 of the 16 related tax year audits.
4
  The NBAP was applicable in each of the 16 related tax year audits.
5
  The PCS linkage package error rate for the related tax year examinations was calculated using a sample size of 13
because that was the number of related tax years in which PCS linkage was applicable.
                                                                                                           Page 25
                      Improvements Are Needed to Ensure That Procedures
                        Are Followed During Partnership Audits Subject to
                       the Tax Equity and Fiscal Responsibility Act of 1982


                                                                                  Appendix VI

                                 Glossary of Terms

Activity Code – A three-digit code in the AIMS that categorizes classes of returns. For
example, Activity Code 481 corresponds to a Form 1065, U.S. Return of Partnership Income,
with 10 or fewer partners and gross receipts of less than $100,000.
Audit Information Management System (AIMS) – A computer system used to control returns
for audit, input assessments/adjustments to the Master File, and provide management reports.
Barred Assessment – A situation that occurs when a legal tax assessment is not made timely
within the prescribed period for assessment. This leads to a loss of revenue to the IRS, even
though any credits on the “barred” module may be placed in the Excess Collection Fund.
Campus – IRS location that can include operations for processing returns and conducting
activity for compliance, customer account services, and customer assistance.
Campus TEFRA Function (CTF) – IRS function located in the Ogden, Utah, and Brookhaven,
New York, Campuses that provide support for field personnel when flow-through (also known as
pass-through) entity cases are linked via the PCS.
Coordinated Industry Case – The name given to the program that conducts the examination of
large corporations that are pre-identified based on special selection criteria.
Direct Partners – A partner that has a direct interest in a partnership.
Examination Returns Control System – An automated inventory management system used to
requisition tax returns, assign returns to examiners, change codes (such as status and project
codes), and charge time. It can be used to control work that is not controlled on the AIMS, such
as preparer penalties. It also provides real-time information in the form of screens and reports
for management of the SB/SE and LB&I Divisions.
First-Line Manager – A group manager in the Examination function responsible for supervision
of IRS examiners.
Fiscal Year (FY) – Any yearly accounting period, regardless of its relationship to a calendar
year. The Federal Government’s fiscal year begins on October 1 and ends on September 30.
Flow-Through Entity – An entity that functions as a conduit (such as S corporations,
partnerships, and certain trusts) for purposes of income tax liability and payments. These entities
file information returns and the entities’ shareholders (or beneficial owners) report their pro rata
share of the gross income and are liable for any taxes due.



                                                                                            Page 26
                      Improvements Are Needed to Ensure That Procedures
                        Are Followed During Partnership Audits Subject to
                       the Tax Equity and Fiscal Responsibility Act of 1982


Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Code – Title 26 of the U.S. Code enacted by Congress containing all relevant
rules pertaining to Federal tax law. This includes estate, excise, gift, income, payroll, and sales
taxes.
Internal Revenue Manual (IRM) – The single official source of IRS instructions to staff.
Instructions to staff are procedures, guidelines, policies, and delegations of authority, and other
such instructional materials relating to the administration and operation of the IRS.
Limited Liability Company – A business entity organized in the United States under State law.
Unlike a partnership, all of the members of a Limited Liability Company have limited personal
liability for its debts. A Limited Liability Company may be classified for Federal income tax
purposes as a partnership, corporation, or an entity disregarded as separate from its owner by
applying the rules in Title 26 of the Code of Federal Regulations Section 301.7701-3. If a
Limited Liability Company has at least two members and is classified as a partnership, it
generally must file Form 1065. Generally, a Limited Liability Company classified as a
partnership is subject to the same filing and reporting requirements as partnerships.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Non-Notice Partner – A partner who owns less than a 1 percent interest in the profits of a
partnership that has more than 100 partners. The TMP is responsible for providing copies of all
notices to the non-notice partners.
Non-TEFRA Audit – In the context of this report, any partnership audit that meets TEFRA’s
small partnership exception. Therefore, the audit is in many ways like an audit of the individual
or corporate partners. For example, each partner’s return is audited separately, and the
determination and treatment of partnership items for one partner is not binding on any other
partner.
Notice Partner – In partnerships with 100 partners or less, all partners are notice partners. In a
partnership with more than 100 partners, all partners owning at least a 1 percent interest are
notice partners. A notice partner is entitled to receive notice of the beginning and conclusion of
the TEFRA partnership proceedings.
Partnership – A relationship between two or more entities or persons who join to carry on a
trade or business, with each partner contributing money, property, labor, or skill and each
expecting to share in the profits and losses. It includes a limited partnership, syndicate, group,
pool, joint venture, or other unincorporated organization, through or by which any business,
financial operation, or venture is carried on that is not within the meaning of the regulations
under Internal Revenue Code Section 7701, a corporation, trust, estate, or sole proprietorship.


                                                                                             Page 27
                      Improvements Are Needed to Ensure That Procedures
                        Are Followed During Partnership Audits Subject to
                       the Tax Equity and Fiscal Responsibility Act of 1982


Partnership Control System (PCS) – A real-time system used to link and control flow-through
returns and their investors. It interfaces with the AIMS and the Master File. It is used to control
returns subject to TEFRA examination procedures, control TEFRA statutes, and generate
required statutory correspondence for TEFRA investors as well as other notices and letters
pertinent to the program. It is also used to control certain returns not subject to TEFRA
examination procedures.
Power of Attorney – A power of attorney is a legal instrument that gives legal authority to
another person (called an attorney-in-fact) to make property, financial, and other legal decisions
for the principal.
Revenue Agent – Employees in the Examination function who conduct face-to-face audits of
more complex tax returns such as businesses, partnerships, corporations, and specialty taxes
(e.g., excise tax returns).
S Corporation – A corporation that elects to pass corporate income, losses, deductions, and
credits through to their shareholders for Federal tax purposes. Shareholders of S corporations
report the flow-through of income and losses on their personal tax returns and are assessed tax at
their individual income tax rates. This allows S corporations to avoid double taxation on the
corporate income. S corporations are responsible for tax on certain built-in gains and passive
income at the entity level. To qualify for S corporation status, the corporation must meet the
following requirements: (1) be a domestic corporation; (2) have only allowable shareholders
(including individuals, certain trusts, and estates, and may not include partnerships, corporations,
or nonresident alien shareholders); (3) have no more than 100 shareholders; (4) have only
one class of stock; and (5) not be an ineligible corporation (i.e., certain financial institutions,
insurance companies, and domestic international sales corporations).
Simple Random Sample – A probability sample (i.e., statistical sample) in which each sampled
item of a given population has an equal chance of being selected. The sample results can be
projected to the population.
Tax Equity and Fiscal Responsibility Act of 1982 (TEFRA) – Established unified audit rules
applicable to all but certain small partnerships. Under these rules, the IRS may challenge the
reporting position of a partnership by conducting a single administrative proceeding to resolve
issues concerning partnership items with respect to all partners. Partnership items are those
items that are more appropriately determined at the partnership level than at the partner level, as
provided by regulations.
Tax Matters Partner (TMP) – TEFRA rules establish the TMP as the primary representative of
a partnership in dealings with the IRS. The TMP is a general partner designated by the
partnership or, in the absence of designation, the general partner with the largest profits interest
at the close of the taxable year. If no TMP is designated, and it is impractical to apply the largest
profits interest rule, the IRS may select any partner as the TMP.


                                                                                             Page 28
                      Improvements Are Needed to Ensure That Procedures
                        Are Followed During Partnership Audits Subject to
                       the Tax Equity and Fiscal Responsibility Act of 1982


Tax Shelter – A tax strategy or scheme that shelters income from normal taxation. Depending
on the facts and legal analysis, a specific transaction or scheme may represent either lawful tax
avoidance or unlawful tax evasion. Those tax shelters resulting in tax evasion are known as
abusive tax shelters.
Tax Year – A 12-month accounting period for keeping records on income and expenses used as
the basis for calculating the annual taxes due. For most individual taxpayers, the tax year is
synonymous with the calendar year.
TEFRA Audit – In the context of this report, it is any partnership audit that does not meet the
TEFRA’s small partnership exception. The IRS may challenge the reporting position of a
partnership by conducting a single administrative proceeding to resolve issues concerning
partnership items with respect to all partners. Partnership items are those items that are more
appropriately determined at the partnership level than at the partner level, as provided by
regulations.
TEFRA Procedures – The Internal Revenue Code statutory procedures and IRS internal
administrative procedures that are required to be followed during audits of partnerships that do
not meet the TEFRA’s small partnership exception.
Territory Manager – Responsible for planning, organizing, coordinating, monitoring, and
directing their respective programs through subordinate managers who are geographically
dispersed throughout the assigned territory.




                                                                                           Page 29
      Improvements Are Needed to Ensure That Procedures
        Are Followed During Partnership Audits Subject to
       the Tax Equity and Fiscal Responsibility Act of 1982


                                                   Appendix VII

Management’s Response to the Draft Report




                                                          Page 30
Improvements Are Needed to Ensure That Procedures
  Are Followed During Partnership Audits Subject to
 the Tax Equity and Fiscal Responsibility Act of 1982




                                                    Page 31
Improvements Are Needed to Ensure That Procedures
  Are Followed During Partnership Audits Subject to
 the Tax Equity and Fiscal Responsibility Act of 1982




                                                    Page 32
Improvements Are Needed to Ensure That Procedures
  Are Followed During Partnership Audits Subject to
 the Tax Equity and Fiscal Responsibility Act of 1982




                                                    Page 33
